                       National Archives and Records Administration
                                                                                                8601 Adelphi Road
                                                                               College Park, Maryland 20740-6001


Date       : August 18, 2010
Reply to
Attn of    : Office of Inspector General (OIG)

Subject    : Advisory Report No. 10-16, No Alternative Back-up Site for the Electronic Records
             Archives System

To         : David S. Ferriero, Archivist of the United States (N)

            The National Archives and Records Administration (NARA) expended over $2.8 million
            dollars 1 to lease space at the Stennis Space Center 2 in Mississippi that was never put to use.
            Originally Congress provided funds for NARA to begin working with the Naval
            Oceanographic Office at Stennis, and the facility was to serve as the primary site for the
            Electronic Records Archives (ERA) System. However, the primary ERA site shifted to
            Rocket Center, West Virginia and the Stennis site was never utilized as either the primary or
            back-up ERA site. Thus, over $2.8 million was expended for leased space that was never
            used, and NARA continues to lack an alternative ERA back-up site.

            ERA represents the largest information technology project ever undertaken by NARA. Due
            to the risk factors involved, the OIG has dedicated resources to provide oversight over the
            program. This report represents our ongoing effort in this regard. In our ERA effort dated
            April 29, 2010, entitled “Inadequate Contingency Planning for the Electronic Records
            Archives System,” the OIG reported that ERA program officials had not adequately planned
            for a long-term service disruption or outage should the ERA System and its primary site
            become unavailable. The ERA, a major information system, is categorized as a high impact
            system requiring such functionality as defined by the National Institute of Standards and
            Technology’s (NIST) 3. Specifically, the OIG report defined that (1) the ERA Business
            Impact Analysis (BIA) is incomplete and lacks current system information such as points of
            contact along with their respective roles, recovery priorities, and specific resources with the
            respective allowable outage time for each; (2) ERA officials cannot define nor illustrate that
            the ERA System (in its entirety) can be successfully restored from back-up tapes; and
            specific to this report (3) the ERA Program does not have an alternative back-up site. Thus,
            if the primary ERA site was subject to prolonged disruption users would be unable to access
            the system and data residing in ERA.

            The Interagency Agreement (IAA) between NARA and the Naval Meteorology and
            Oceanography Command at the Stennis Space Center was entered into on June 20, 2006 and
            initially funded by Congress with a FY 2006 budget earmark. According to the prior ERA
1
  See Attachment A for a schedule of payments.
2
  The John C. Stennis Space Center is a NASA facility located in southern Mississippi.
3
  See Attachment B for a more detailed description of security related criteria.
Program Director, no one at NARA had any involvement in or knowledge of this funding
before it was added it to the appropriation. Prior to this, NARA had decided in principle that
at least one complete copy of all the records preserved in ERA had to be in a facility
controlled by the Government. According to the NARA official, given the Congressional
direction and the established capabilities at Stennis for hosting and protecting government
computers, NARA decided to use the earmark to locate the primary site for the ERA System
at Stennis. However, this never came to fruition.

The primary site is now located in West Virginia. The former ERA Program Director also
stated that before NARA reached the stage of actually installing any hardware at Stennis, the
Congress, through the office of Senator Byrd, gave NARA the option of locating primary
ERA functionality at the Allegany Ballistics Lab in Rocket Center, West Virginia. Per ERA
officials, the Rocket Center offered substantial cost avoidance advantages over the Stennis
location. However, these officials defined that NARA opted to retain Stennis as a back-up
site. Unfortunately, Stennis has never met the definition of a back-up site, as there is and has
never been any ERA equipment at the site. Further, no ERA personnel have ever resided on-
site at that location. In fact, even if NARA did expedite shipping equipment there in an
emergency, it would take several weeks for the system to be installed and usable. Figures 1
and 2 below show the empty space paid for by NARA. The few cabinets in the room are
residual, containing power supply feeds, etc., and do not hold any NARA equipment.




                       Figure 1                                        Figure 2

NARA’s 2008 Performance Budget Congressional Justification stated that by the beginning
of 2008, there would be an ERA operational site in West Virginia and a back-up site in
Mississippi, which together would be capable of accepting and securely storing Presidential
and Federal government electronic records. These sites were also to provide basic
preservation, search, and retrieval capability for unclassified and Sensitive But Unclassified
records from NARA’s existing holdings and initially from four Federal agencies. When
asked why hardware had not been installed at Stennis the former ERA Program Director
responded there was never an appropriation for a back-up system. He stated the 2008 budget
language was finalized in March 2007, prior to Lockheed Martin Corporation (the ERA
systems development contractor) admitting they would not be able to meet the schedule for
initial operating capability in the fall of that year. At that time, the expectation was there
would be enough funds available to establish a back-up capability at Stennis.


                                             2
                        National Archives and Records Administration
To date, NARA has paid $2,862,357 for space at the Stennis Space Center. The initial
earmark was for $2 million, but a NARA budget official stated it was reduced by 1%
($20,000). According to an ERA Program Office official, there were no additional earmarks
for Stennis after the initial one. She stated there were annual obligations from the ERA
appropriations for support/Operations & Maintenance of the Stennis site. These funds
totaled $882,357. In December 2009, NARA notified the Naval Meteorology and
Oceanography Command that it would not be exercising the next option year, thereby
terminating the agreement with Stennis on June 20, 2010.

To adequately plan for a long-term service disruption, ERA officials need to have a
contingency plan in place that includes an alternative back-up site for the ERA System
should its primary processing site be unavailable. In the event of a disaster, NARA may not
be able to fulfill its mission and provide Federal users, as well as the public, access to critical
electronic records. We will continue to monitor the contingency planning process for the
ERA System and report back to you on a periodic basis.

This project was part of our on-going effort to review NARA’s development and
implementation of the ERA. Our review effort consisted primarily of reviewing applicable
ERA documentation such as the ERA System Security Plan, Contingency Plan, the IAA with
the Commander, Naval Meteorology and Oceanography Command, ERA Congressional
Budget Justifications; and interviews with responsible ERA Program Office officials and
other appropriate officials. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

If you have any questions concerning the information presented in this report, please e-mail
Mr. James Springs or me, or call us at extension 73000.




Paul Brachfeld
Inspector General


cc: NH (C. Piercy)




                                              3
                         National Archives and Records Administration
                                                      Attachment A



Schedule of Payments Made for the Stennis Facility



  Payment Date                    Payment Amount
  December 21, 2006               $1,743,274.50
  December 21, 2006                  160,000.00
  January 11, 2007                    25,000.00
  January 11, 2007                    56,725.50
  August 18, 2008                      2,153.41
  September 12, 2008                     760.03
  October 15, 2008                       771.57
  October 23, 2008                    26,264.42
  November 14, 2008                    3,977.31
  January 14, 2009                    61,278.78
  February 11, 2009                   85,796.24
  February 11, 2009                    8,123.37
  March 11, 2009                       2,773.20
  August 13, 2009                     29,620.42
  September 14, 2009                   1,817.45
  December 17, 2009                   12,800.00
  February 4, 2010                     2,951.70
  February 10, 2010                   14,952.11
  April 5, 2010                      184,847.80
  April 12, 2010                     438,469.02
  Totals                          $2,862,356.83




                            4
       National Archives and Records Administration
                                                                              Attachment B



               Security-Related Criteria for Security Categorization
                      and Minimum Security Requirements

The Federal Information Processing Standards (FIPS) Publication 199, entitled “Standards
for Security Categorization of Federal Information and Information Systems” requires
agencies to categorize their information systems based on the potential impact on an
organization should certain events occur which jeopardize the information and information
systems needed by the organization to accomplish its assigned mission, protect its assets,
fulfill its legal responsibilities, maintain its day-to-day functions, and protect individuals.
Information systems are to be categorized as low-impact, moderate-impact, or high-impact
for the security objectives of confidentiality, integrity, and availability. The potential impact
values assigned to the respective security objectives are the highest values (i.e., high water
mark) from among the security categories that have been determined for each type of
information resident on those information systems. The ERA System’s security objectives
are categorized as high for confidentiality and integrity, and moderate for availability.
Therefore, the ERA is defined as a high-impact information system since at least one of its
security objectives is high.

FIPS Publication 200, entitled “Minimum Security Requirements for Federal Information
and Information Systems” establishes minimum security requirements for the following 17
security-related areas based on the designated impact level of the information system.

Access Control
Awareness and Training
Audit and Accountability
Certification, Accreditation, and Security Assessments
Configuration Management
Contingency Planning
Identification and Authentication
Incident Response
Maintenance
Media Protection
Physical and Environmental Protection
Planning
Personnel Security
Risk Assessment
Systems and Services Acquisition
System and Communications Protection
System and Information Integrity




                                             5
                        National Archives and Records Administration
For high-impact information systems, organizations must, as a minimum, employ
appropriately tailored security controls from the high baseline of security controls defined in
NIST Special Publication 800-53 entitled “Recommended Security Controls for Federal
Information Systems and Organizations” and must ensure that the minimum assurance
requirements associated with the high baseline are satisfied.

NARA’s Information Technology (IT) Security Policies and IT Security Requirements are
based on NIST Special Publication 800-53 and identify 17 families of controls that comprise
the minimum set of security control required by all federal information or information
systems. Within the Contingency Planning Control family, one of the controls is for an
alternate processing site. NARA’s IT Security Requirement for this control states:

“For moderate or high availability information systems, NARA shall identify an alternative
processing site and initiate necessary agreements to permit the resumption of information
system operations for critical mission or business functions within the timeframe defined in
the approved Continuity of Operations Plan or Disaster Recovery Plan when either plan is
invoked.”




                                             6
                        National Archives and Records Administration
